No.

IN THE
SUPREME COURT OF THE UNITED STATES

£><htiill-

— PETITIONER

(Your Name)
VS.
— RESPONDENT(S)
PROOF OF SERVICE

, do swear or declare that on this date,
, 205uD, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
//-//

The names and addresses of those served are as follows:

St ■

Cafltiflfc CcJwl^

I declare under penalty of peijury that the foregoing is true and correct.
Executed on

11- //

,20®
J

(Signature)

